LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

November 20, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE 19-518: COLORADO DEPARTMENT OF STATE V. MICHEAL BACA, ET AL.
Dear Sir or Madam:
As required by Supreme Court Rule 33.1(h), I certify that the Amicus Curiae Brief
in the case referenced above contains 5,441 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Sincerely,

Jack Suber, Esq.
Principal

Sworn and subscribed before me this 20th day of November 2019.

